<html>
<title> - THE NON-GOVERNMENTAL ORGANIZATION PERSPECTIVE ON THE SOUTHWEST BORDER</title>
<body><pre>[Senate Hearing 117-37]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 117-37
 
 THE NON-GOVERNMENTAL ORGANIZATION PERSPECTIVE ON THE SOUTHWEST BORDER

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON
              GOVERNMENT OPERATIONS AND BORDER MANAGEMENT

                                 of the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS


                             FIRST SESSION

                               __________

                             APRIL 28, 2021

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        




              U.S. GOVERNMENT PUBLISHING OFFICE 
45-044 PDF            WASHINGTON : 2021         



        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   GARY C. PETERS, Michigan, Chairman
THOMAS R. CARPER, Delaware           ROB PORTMAN, Ohio
MAGGIE HASSAN, New Hampshire         RON JOHNSON, Wisconsin
KYRSTEN SINEMA, Arizona              RAND PAUL, Kentucky
JACKY ROSEN, Nevada                  JAMES LANKFORD, Oklahoma
ALEX PADILLA, California             MITT ROMNEY, Utah
JON OSSOFF, Georgia                  RICK SCOTT, Florida
                                     JOSH HAWLEY, Missouri

                   David M. Weinberg, Staff Director
                    Zachary I. Schram, Chief Counsel
                Pamela Thiessen, Minority Staff Director
    Andrew Dockham, Minority Chief Counsel and Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk


      SUBCOMMITTEE ON GOVERNMENT OPERATIONS AND BORDER MANAGEMENT

                     KRYSTEN SINEMA, Arizona, Chair
THOMAS R. CARPER, Delaware           JAMES LANKFORD, Oklahoma
ALEX PADILLA, California             RON JOHNSON, Wisconsin
JON OSSOFF, Georgia                  MITT ROMNEY, Utah
                                     JOSH HAWLEY, Missouri

                     Eric A. Bursch, Staff Director
  James D. Mann, Minority Staff Director and Regulatory Policy Counsel
                   Kate Kielceski, Subcommittee Clerk
                   
                   
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Sinema...............................................     1
    Senator Lankford.............................................     3
    Senator Carper...............................................    12
    Senator Johnson..............................................    15
    Senator Padilla..............................................    17
Prepared statements:
    Senator Sinema...............................................    29
    Senator Lankford.............................................    31

                               WITNESSES
                       Wednesday, April 28, 2021

Ruben Garcia, Director, Annunciation House.......................     5
Beth Strano, Asylum Seekers and Families Coordinator, 
  International Rescue Committee.................................     6
Joshua Jones, Senior Fellow, Border Security, Texas Public Policy 
  Foundation.....................................................     8

                     Alphabetical List of Witnesses

Garcia Ruben:
    Testimony....................................................     5
    Prepared statement...........................................    33
Jones, Joshua:
    Testimony....................................................     8
    Prepared statement...........................................    45
Strano, Beth:
    Testimony....................................................     6
    Prepared statement...........................................    39

                                APPENDIX

Texas/Mexico Border picture......................................    49
Border wall picture..............................................    50
SW Border Apprehensions..........................................    51
HIAS statement...................................................    52
Responses to post-hearing questions for the Record:
    Mr. Garcia...................................................    54
    Ms. Strano...................................................    56
    Mr. Jones....................................................    65


 THE NON-GOVERNMENTAL ORGANIZATION PERSPECTIVE ON THE SOUTHWEST BORDER

                              ----------                              


                       WEDNESDAY, APRIL 28, 2021

                                     U.S. Senate,  
                      Subcommittee on Government Operations
                                      and Border Management
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. via 
Webex, Hon. Kyrsten Sinema, Chair of the Subcommittee, 
presiding.
    Present: Senators Sinema, Carper, Padilla, Ossoff, 
Lankford, Johnson, and Hawley.

             OPENING STATEMENT OF SENATOR SINEMA\1\

    Senator Sinema. Welcome to the first hearing of the 
Subcommittee on Government Operations and Border Management for 
the 117th Congress. I am pleased to chair this Subcommittee and 
to partner with Ranking Member Lankford, just as we did in the 
116th Congress. I look forward to working with him, the Chair 
and Ranking Member of the full Committee, and the rest of my 
Senate colleagues to address a wide array of critical issues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Sinema appears in the 
Appendix on page 29.
---------------------------------------------------------------------------
    Our Subcommittee has an expanded jurisdiction this 
Congress. We will continue to examine important topics such as 
Federal regulatory policy and a more efficient Federal 
workforce, and I expect we will also look at how to improve the 
U.S. Postal Service (USPS) and the decennial census. We will 
also focus significant time on a critical topic for my State of 
Arizona and the entire nation--improving how we manage and 
secure our border.
    I grew up in southern Arizona, so like a lot of Arizonans I 
have seen first-hand how Arizona, and specifically small 
communities along the border, pay the price for the Federal 
Government's 
failure over decades to fix our broken immigration system. As 
Chair of this Subcommittee, I will work to ensure Congress and 
the administration take meaningful steps to secure the border, 
support our border communities and non-governmental 
organizations (NGO's), prevent the spread of coronavirus 
disease 2019 
(COVID-19), and treat all migrants and unaccompanied alien 
children (UAC) fairly and humanely.
    Right now our nation confronts a crisis at our Southwest 
Border. Since the beginning of 2021, we have seen an 
unprecedented surge of migrants arrive at the border. The 
Department of Homeland Security (DHS) has reported 351,803 
migrant encounters in just the first 3 months of 2021, compared 
to 107,732 during the same period in 2020. This influx of 
migrants puts severe strain on both the Department of Homeland 
Security and the Department of Health and Human Services (HHS). 
The men and women staffing those departments have worked 
tirelessly to help migrants while also securing the border, 
facilitating trade, and protecting our communities.
    But there are many others also working day and night to 
help migrants and respond to the ongoing crisis. I am pleased 
we have several of those individuals joining us today as 
witnesses.
    Non-government organizations play a critically important 
role in managing the ongoing influx. Their efforts to provide 
migrants with basic assistance, including food, shelter, and 
travel aid, is a key link in the ongoing effort to ensure 
migrants are treated fairly and our communities can 
successfully manage this crisis. Without these NGO's, Arizona, 
our border States, our nations, and the migrants themselves 
would be worse off.
    This is why I worked with my colleagues to include $110 
million in funding in the last COVID package to provide NGO's 
and border communities with additional resources to assist 
migrants and protect our communities.
    I look forward to hearing directly from the International 
Rescue Committee and Annunciation House about how Congress and 
the administration can improve its efforts to communicate and 
coordinate with NGO's, and it is critical that Congress hear 
directly from NGO's about the challenges they face, so it can 
craft solutions that make sense for everyone impacted by this 
crisis.
    It is also critical that we always consider the security 
challenges of the ongoing influx. I look forward to hearing 
about steps this Congress and the administration can take right 
now to better secure our border and protect our communities 
from the threats posed by transnational criminal organizations 
(TCOs).
    Last week, I introduced bipartisan legislation with Senator 
Cornyn in response to the ongoing crisis. The bipartisan Border 
Solutions Act takes a number of important steps to respond to 
this influx by improving DHS processing capacity, improving 
legal assistance to migrants, and ensuring DHS better 
coordinates and communicates with NGO's and local governments.
    Our bipartisan bill represents a first step toward dealing 
with some of the challenges we see at the border. It does not 
tackle every challenge. I look forward to working with my 
colleagues, the administration, and outside stakeholders, 
including the NGO's represented today on our panel, to improve 
our proposal.
    Now, without objection, I am entering into the record 
statements for the record from the Southern Border Communities 
Coalition and Amnesty International.
    Thank you all for joining today. I look forward to the 
testimony and to the discussion.
    I would like to recognize Senator Lankford for his opening 
statement.

            OPENING STATEMENT OF SENATOR LANKFORD\1\

    Senator Lankford. Senator Sinema, thank you very much. I do 
look forward to working with you during the session, and I know 
your work ethic and the things that you take on, so I am 
grateful to be able to serve alongside of you in this 
conversation, and to be able to try to find the areas where we 
have common ground on this. I know this will be the first of 
many Subcommittee hearings dealing with this issue of border 
management, which is an essential part of our Subcommittee 
responsibility.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Lankford appears in the 
Appendix on page 31.
---------------------------------------------------------------------------
    For the witnesses that are here, thank you very much for 
coming well prepared, for your prior statements you have 
submitted. We appreciate your engagement today. There is a lot 
that we need to be able to cover.
    The March 2021 Southwest Land Border's Encounters Report 
from U.S. Customs and Border Protection (CBP) paints a pretty 
alarming picture of the crisis that is happening on our 
Southern Border. CBP encountered more than 172,000 migrants in 
the month of March alone. That is nearly 570,000 migrants in 
this fiscal year (FY). To put that in perspective, that is 
larger than the entire population of the city of Tulsa in my 
home State of Oklahoma, that have come across our border this 
year.
    Preliminary data for 2021 that is coming shows that we are 
continuing to see a surge of migrants coming across our border. 
In fact, if you compared the first 3 weeks of this year to the 
first 3 weeks of the previous 3 years--2020, 2019, and 2018--we 
have had more encounters in April, just this April, than we 
have had in the previous 3 years of April, combined. This year 
there have also been more than 5,000 encounters with aliens 
coming across the border with a criminal record in the United 
States.
    The number of unaccompanied children crossing our borders 
is currently on track to reach a 20-year high. In March 2021, 
CBP apprehended nearly 19,000 unaccompanied children. This is a 
historic surge of UACs, straining the resources of CBP and the 
Office of Refugee Resettlement (ORR) at an alarming rate.
    The non-governmental organizations appearing today are 
working hard, alongside our government, to address this crisis. 
Many of the advocates working with these NGO's are living out 
their faith and providing food and shelter to the most 
vulnerable. While I am grateful for the NGO's, the churches, 
religious communities, and many other people in every single 
town and community along the border that are walking alongside 
these individuals, I am concerned about the series of policy 
decisions that still need to be made and some of the decisions 
that were made at the White House that actually have led to 
this crisis.
    President Biden, on the first day of his administration, 
began rolling back many of the policies of President Trump, 
that were put in place when we faced a similar surge in 2019, 
only a smaller surge even than what we are facing now. These 
policies put in place by the previous administration 
strengthened our security and stabilized our border. Policies 
that now enrich the human trafficking cartels are beginning to 
rise again, and it is putting thousands of people in danger.
    I took trips to the Southwest Border during the 2019 crisis 
as well, because we had also worked on this issue at that time 
and during the ongoing crisis this year. In fact, I went to the 
Donna, Texas, facility that is so well-known now, from housing 
so many unaccompanied minors, and I was there in 2019 and there 
in 2021, and I can tell you, I was shocked to be able to see 
the difference between the two.
    Let me show you a picture of what this facility looked like 
in 2019 and what it looks like in 2021.\1\ The stark difference 
between the two is pretty remarkable. In 2019, they were 
housing unaccompanied minors. They were moving their way 
through. There was space in that facility. In 2021, that 
facility, one of the rooms that I was in that is designed to 
hold 80 people, and as I saw it in 2019, did hold 80 people, it 
was designed to hold 80 people, but it was actually holding 709 
people. In that particular facility, some of those individuals 
had been there more than 10 days in that small, crowded space, 
with 709 people in a facility designed for 80.
---------------------------------------------------------------------------
    \1\ Picture of Texas/Mexico facility appears in the Appendix on 
page 49.
---------------------------------------------------------------------------
    Problems leading to this crisis are complex. We understand 
that. Cartel violence, human trafficking, smuggling, narcotics 
trade, depressed economies, coronavirus pandemic, slow economic 
growth in the Northern Triangle countries, they all lead to 
this situation.
    But it is not just the Northern Triangle. As I visited with 
Border Patrol agents along our Southwest Border a few weeks, 
and asked, ``How many countries have we encountered this fiscal 
year?'' the answer I got was more than 100 different countries 
have been encountered this year, coming across our Southwest 
Border. It is incredibly complicated, and our border has become 
so porous and open at this point that we are seeing people 
literally from all over the world now crossing that border.
    Addressing these problems will require a whole-of-
government approach. We have to build capacity to be able to 
strengthen our regional security, to disrupt transnational 
criminal organizations that fuel this violence, strengthen our 
border security, and provide for some smart reforms in how we 
are going to handle our immigration laws. It is significant 
that we take this on.
    The current asylum system is not working the way that it is 
set up, and it has become an incentive. Currently, if you are 
an individual coming across our Southwest Border today, you 
will be given a notice to appear (NTA) if you request an asylum 
hearing, which most everyone does. The current date on the 
notice to appear that you will have to appear before Federal 
authorities--and it would be your first encounter with the 
Federal authorities since you leave the border--is May 22, 
2024, 3 years from now.
    This Congress, I look forward to working with Senator 
Sinema and my colleagues to strengthen our border security, to 
ensure we have a better enforcement, to be able to work through 
constructive solutions to be able to fix our broken asylum 
system and our immigration laws, and I look forward to 
beginning that dialog even today.
    Senator Sinema, thank you for calling this hearing, and I 
look forward to a good dialog today.
    Senator Sinema. Thanks so much, Senator Lankford.
    Now I will introduce our witnesses for today's hearing. I 
will ask all of our witnesses to keep their opening statements 
to 5 minutes in length. Your full statements will be submitted 
for the record.
    Our first witness is Beth Strano, the Asylum Seekers and 
Families Coordinator at the International Rescue Committee 
(IRC) in Phoenix. In this capacity, Ms. Strano plays a pivotal 
role in operating the Phoenix Welcome Center for asylum-seeking 
families. Ms. Strano, thank you so much for your work and for 
joining us today. You are now recognized for your opening 
statement.
    [Pause.]
    It looks like Ms. Strano might be having a connection 
issue, so I am going to skip to our second speaker.
    Our next witness is Ruben Garcia. He is the Founder and 
Director of Annunciation House, which is an El Paso NGO that 
has served asylum-seekers for more than 40 years.
    Mr. Garcia, thank you for your work and for joining us 
today, and you are now recognized for your opening statement.

   TESTIMONY OF RUBEN GARCIA,\1\ DIRECTOR, ANNUNCIATION HOUSE

    Mr. Garcia. Senator Sinema and Senator Lankford, I 
appreciate the opportunity to come before you today and share 
my thoughts with you and the full Members of the Subcommittee 
on Government Operations and Border Management.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Garcia appears in the Appendix on 
page 33.
---------------------------------------------------------------------------
    I have been with Annunciation House since its inception in 
1978, and our work has been focused exclusively in providing 
hospitality for refugees as they have crossed the border here 
in the Juarez, Mexico, El Paso, Texas corridor. Over the years 
we have hosted hundreds of thousands of refugees in our 
hospitality sites.
    The first real family wave or surge that we saw happened in 
2014, and it was at that point where we saw the phenomena of 
families crossing first, initially, in south Texas, and 
literally turning themselves into Border Patrol, and the 
challenge of how to handle this surge we saw for the first time 
at that point. It resulted in plane-loads of families being 
flown to El Paso and then released here in El Paso.
    Something that was very pivotal and important that took 
place then, in 2014, which I think has a great deal of bearing 
on what is happening today, is that the Deputy Director of 
Immigration and Customs Enforcement (ICE) locally here reached 
out to Annunciation House and explained this is what is going 
to be happening. These planes are going to start arriving. We 
are going to process the individuals, they are going to be 
given the NTA, then they are going to be released, and what we 
want to know if Annunciation House will receive them, and we 
did. As all of these planes arrived, people were processed, 
they were released, they came to hospitality sites that 
Annunciation House organized.
    Thereafter, when the flights stopped coming, we began to 
notice that the flow of refugees began to shift to the Juarez-
El Paso area, and we then started to see much higher numbers of 
individuals that were crossing the border here, were being 
apprehended by Border Patrol, were being processed, and then 
were being released to Annunciation House.
    That was the first surge back in 2014. A much greater surge 
happened in the 2018-2019 fiscal year, which required us to 
partner with many churches here in the El Paso and Las Cruces 
area. It also required that we reach out to churches and 
communities in Albuquerque. There were a couple of times that 
we even sent buses to churches in Denver, Colorado, and Dallas, 
Texas, all of it done by volunteers, all of it being done by 
churches that were making space available in their cafeterias 
and their meeting rooms, in their gymnasiums. It was possible 
through that coalition of churches and organizations that 
stepped forward with their volunteer personnel to accommodate 
150,000 refugees that were released by ICE and Border Patrol 
during that fiscal year.
    We are beginning to see an increase, which is periodic. I 
have been at this for many years, and the increases, especially 
in the springtime, is something that repeats itself, or has 
been repeating, and we are seeing, again, an increase in the 
number of individuals. This has been compounded by the need to 
unwind the Migrant Protection Protocols (MPP) program and to 
allow families that were placed in the MPP program to enter, 
which they are entering. As they enter, those that need 
hospitality, they are coming to the hospitality sites of 
Annunciation House. Then also, and a much greater concern, the 
unwinding or the decision of how to handle the Title 42 
expulsions. This is something that is of great concern.
    As we look forward to what happens, there are two things 
that I would emphasize. First, that the MPP unwinding, the 
unwinding of the MPP program was thought out, it was planned, 
it was organized, and it has been working amazingly well. 
People have been entering in a safe manner, COVID tested, and 
it has been working amazingly well.
    The concern now is how the Title 42 expulsions are going to 
be dealt with, and that a similar planned-out, organized, safe 
approach is taken in dealing with the Title 42 expulsions. 
Thank you.
    Senator Sinema. Thank you, Mr. Garcia.
    Ms. Strano, you will now be recognized for 5 minutes of 
testimony. Thank you for being with us today.

   TESTIMONY OF BETH STRANO\1\, ASYLUM SEEKERS AND FAMILIES 
          COORDINATOR, INTERNATIONAL RESCUE COMMITTEE

    Ms. Strano. Thank you. Sorry about the Internet crash.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Strano appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    Chairwoman Sinema, Ranking Member Lankford, and 
distinguished Senators, I am grateful for the opportunity to 
share from the perspective of the International Rescue 
Committee, which has a unique vantage point as an NGO working 
across the full arc of crisis for thousands of asylum seekers, 
from conflict and disaster regions to recovery and protection.
    In my role, specifically, I oversee the operations of the 
Welcome Center in Phoenix, Arizona, which is a 24-hour 
emergency shelter serving asylum seekers and their children. 
The center provides emergency humanitarian assistance alongside 
local community partners, and works closely with similar 
shelters in Tucson, The Inn and Casa Alitas, to provide a 
regional response across the State.
    Beyond Arizona, the Welcome Center is a member of the 
Border Asylum Shelter Coalition, composed of partners offering 
critical services to families from San Diego to Brownsville. 
This network of shelters has developed best practices over the 
years to safely receive asylum seekers, delivering humanitarian 
assistance, and assist with onward movement to their sponsors.
    Thus far in 2021, the Welcome Center has served more than 
6,000 people from 43 different countries. Families and 
individuals generally stay onsite for 24 to 72 hours while they 
connect to their U.S.-based family members and sponsors. We 
work in close collaboration with our county health department 
to ensure that everyone who stays at the shelter received COVID 
testing, information on health safety, and is given space to 
quarantine, if needed.
    We recognize that the Federal Government is currently 
facing a triple challenge of unwinding inhumane policies from 
former administrations, responding to current humanitarian 
crises in Central America and Haiti, and humanely managing an 
increase of arrivals of asylum seekers at the U.S.-Mexico 
border, all during a pandemic.
    The United States is one of the most resourced countries in 
the world, with the capacity to provide protection and 
implement policies that offer refuge for the most vulnerable. 
The concept of offering safety to immigrants is deeply embedded 
in our culture as a representation of our best natures. ``Give 
me your tired, your poor, your huddled masses yearning to 
breathe free'' still inspires us to become the America that 
Emma Lazarus believed in.
    To meet these shared goals, we recommend that the U.S. 
Government scale up capacity and engagement with community-
based shelters and partners would demonstrate success at 
meeting the comprehensive needs of asylum seekers.
    We prioritize this engagement in three primary areas. 
First, safe and human processing of asylum seekers at the U.S.-
Mexico border must include direct transportation to the nearest 
border shelter in the United States.
    In Arizona this year, community partners have had to react 
quickly to releases of asylum seekers in small communities such 
as Ajo and Gila Bend, neither of which have public transit 
centers. It should not be expected that under-resourced 
communities will be able to provide transportation for up to 
100 released asylum seekers with only a few hours' notice, 
especially during a pandemic. It is necessary to equip border 
shelters to assist in providing transit and coordination.
    Second, we recommend that Congress partner with members of 
the Border Asylum Shelter Coalition to develop an outcomes-
driven model of humanitarian reception. Legal orientations at 
the Welcome Center inform families to help them participate 
fully in the asylum process, leading to better outcomes and 
addressing obstacles. Approximately 20 percent of the people we 
serve have needed assistance to address mistakes in their 
immigration paperwork. Without referrals to legal and social 
service providers, more vulnerable individuals could fall 
victim to exploitation or trafficking.
    We are confident that the community-based model of 
reception by border shelters can lead to better, longer-term 
outcomes for asylum seekers. Sustainable and formal funding for 
operating costs for shelters would increase their capacity to 
serve as resilient community resources with a lasting, positive 
impact on our clients.
    Third, case management services in destination locations 
should be scaled up and federally funded. Case management is a 
proven mechanism for supporting asylum seekers to fulfill their 
immigration process obligations and reach self-sufficiency in 
their communities. Currently, there is no case management 
program that is federally funded or outlined by the government.
    They should receive meaningful referrals from the point of 
reception to the border at their destination. Without further 
delay, the government should implement a nationally coordinated 
effort that supports asylum seekers in finding safety and 
stability, and empowers them to fully participate in the legal 
process.
    The right to claim asylum is protected by international 
law, and is driven by the need to seek safety from persecution 
and violence. Policies which have made it more difficult to 
seek or obtain asylum have not resulted in a more safe or 
orderly process at the border. In reality, making the road 
harder for those who are already fleeing violence does not 
change their need to seek safety, but it does reflect on our 
willingness to provide it.
    Humanitarian needs for asylum seekers have consistently 
been met for years at the border and beyond by a network of 
community-based shelters, NGO's, legal partners. These networks 
represent deep expertise and resources which benefit our 
communities throughout the ebbs and flows of policy change and 
international crisis, and they are invaluable assets to guiding 
the creation of a more human asylum process.
    I would like to close with the aspirational words of 
Langston Hughes and his vision of the American dream as 
accessible to all. He said, ``Let America be America again. Let 
it be the dream it used to be. Let it be the pioneer on the 
plain, seeking a home where he, himself, is free.''
    Thank you so much, Senators, and I look forward to 
answering your questions.
    Senator Sinema. Thank you so much.
    Our final witness is Josh Jones, the Senior Fellow on 
Border Security for the Texas Public Policy Foundation. In this 
role, Mr. Jones conducts organized crime and security 
assessments in Mexico to evaluate threats to U.S. national 
security interests.
    Mr. Jones, thank you so much for joining us today, and you 
are recognized for your opening statement.

 TESTIMONY OF JOSHUA JONES,\1\ SENIOR FELLOW, BORDER SECURITY, 
                 TEXAS PUBLIC POLICY FOUNDATION

    Mr. Jones. Thank you, Chairwoman Sinema, Ranking Member 
Lankford, and the other Members of the Subcommittee for the 
opportunity to testify today. I am a Senior Fellow in Border 
Security at the Texas Public Policy Foundation. My comments and 
recommendations today are my own and do not necessarily reflect 
those of the foundation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jones appear in the Appendix on 
page 45.
---------------------------------------------------------------------------
    Until December 2020, I was an Assistant U.S. Attorney in 
the Southern District of California, and I had been a 
prosecutor in the U.S. Department of Justice (DOJ) for 
approximately 17 of the prior 18 years. For the last 12 of 
those years, I worked almost exclusively on investigation and 
prosecutions of transnational criminal organizations in Latin 
America, first from the Criminal Division of Main Justice and 
later from the U.S. Attorney's Office in the Southern District 
of California.
    In my last 18 months with the Department, I served on the 
Attorney General's Joint Task Force Vulcan, which coordinated 
domestic and international investigations in the MS-13 
Transnational Criminal Organization. In that capacity, I 
coordinated task force efforts in Mexico and parts of Central 
America.
    During my time on Joint Task Force Vulcan, I met a young 
man, 18 years old, who had recently migrated from Honduras. His 
story personifies both the complexity and the tragedy of the 
choices faced by Central Americans who make the long, arduous 
journey to the United States.
    When he was 13 years old, a group of masked MS-13 members 
approached him on his way home from school in his small 
Honduran village. MS-13 controlled the neighborhood surrounding 
his home and school, and along with the rival 18th Street gang 
controls virtually all geographic territory in the Northern 
Triangle.
    The MS-13 members took him to a nearby house and told him 
that he would be expected to join the local MS-13 clique. If he 
did not, he and his sisters would be killed. He did not want to 
join the gang, however, and through a contact with a smuggling 
organization he arranged to leave his single mother and sisters 
in Honduras, and at the age of 13, make the 1,800-mile journey 
to the United States.
    His smugglers arranged his journey out of Honduras through 
the rocky roads of the Guatemalan hills and jungles and into 
the cartel-controlled territories of Mexico. Where necessary, 
his smugglers paid the taxes required by the local criminal 
syndicate, whether the street gangs of Guatemala or the cartels 
of Mexico. He witnessed the atrocities that we have heard about 
too often in these migrant caravans--young women raped, kids 
given up for ransom, or coerced into trafficking rings.
    His journey through Mexico took him along the well-trodden 
smuggling routes into Chiapas, through Veracruz and Monterrey, 
and eventually to the U.S. border across from the Rio Grande 
Valley (RGV), across from Laredo, Texas. The local criminal 
organizations knew well the Customs and Border Patrol patterns 
along the river valley, and using a network of lookouts on both 
sides arranged for him and others to cross safely into the 
United States in the dead of night.
    The young man then had a problem. His family could not 
afford the $5,000 fee charged by the smuggling organization for 
his transportation north, so to pay off the debt, his smugglers 
had arranged with the local Mexican drug trafficking 
organization for him to traffic drug for them. So the young man 
who left his home and family in Honduras because he did not 
want to be a gang member was forced to traffic illegal drugs 
into the United States. Any money he made beyond what he owed 
to criminal organizations was sent home to his mother in 
Honduras, who, like all the others in the area, was forced by 
the local MS-13 clique to pay taxes to the gangs in order to 
continue to live in the area.
    I met this young man because he had been caught trafficking 
50 kilograms of fentanyl-laced heroin into the United States. 
He was looking at a 10-year mandatory minimum sentence, and a 
sentencing guideline that ranged closer to 20 years.
    While I have offered few details of this young man's 
experience in order to protect his identity, his story is not a 
unique one. It is repeated every day in the cities and villages 
of the Northern Triangle. The 50-kilogram shipments of 
fentanyl, when not stopped at the border, make their way onto 
the streets and suburbs of the United States, taking the lives 
and the livelihoods of thousands of young people.
    In my previously submitted written testimony I described 
how criminal organizations from the Northern Triangle gangs to 
the Mexican cartels operate, and the human smuggling cycle, and 
how they exploit Central Americans who have often no real 
choice but to leave for the U.S. border. By the time most 
Central Americans reach CBP or Health and Human Services 
facilities or the NGO's operating along the border, they have 
witnessed or experienced unspeakable atrocities. In some cases, 
the minors and young adults taken in by CBP and by the NGO's 
are gang members themselves, planning to join an MS-13 or 18th 
Street clique in the United States. Others, as we have seen, 
will soon be coerced to work for a drug cartel. If they are 
lucky, they will be allowed to find work on their own, but the 
first $5,000 to $10,000 they earn will still go to their 
smugglers.
    I look forward to answering your questions and discussing 
potential solutions to the complex problems on every side of 
the recurring immigration crises, from the national security 
threats arising from illegal immigration to the confluence of 
transnational criminal organizations and hostile foreign States 
at the border, to the so-called root causes of migration from 
the Northern Triangle.
    Thank you again for the opportunity to be here today.
    Senator Sinema. Thank you, Mr. Jones, and thank you for 
joining us today.
    Now we will begin the question portion of the hearing, and 
each Senator will get 7 minutes for questions.
    Senator Lankford, I would like to recognize you, if you 
would like to do the first round of questions.
    Senator Lankford. Senator Sinema, why don't I go ahead and 
defer to the other Members that may be in the queue, and then 
since I will be here the whole time I will take my questions 
last.
    Senator Sinema. OK. I will go ahead and start then. I am 
going to start and then I will go directly to Senator Johnson.
    My first question is for Ms. Strano. Communication and 
coordination between DHS and NGO partners are crucial to 
successfully manage this crisis. In 2019, and again this year, 
we have seen communication failures directly impact Arizona 
communities and migrants in a negative way. It is a key reason 
why my bipartisan bill with Senator Cornyn requires DHS to 
improve coordination and communication with local communities 
and NGO's.
    Which specific aspects of communication and coordination 
with DHS still need to get better so NGO's, such as the IRC, 
can more efficiently and effectively help our communities?
    Ms. Strano. Thank you for your question, Chairwoman Sinema. 
I agree with you that increased collaboration and communication 
has been a huge driver for increased successful outcomes. We do 
still experience a lot of breakdowns around guarding 
transportation, from the border to the hubs where there are 
services. In Arizona, we really have services centralized 
within Tucson and Phoenix, and although there are plentiful 
resources there, we have many small towns that are closer to 
the border where we see releases happen.
    There is cross-agency coordination that needs to happen 
between CBP and ICE to ensure that folks are transported 
directly to services, rather than being released in those small 
towns that have no outward migration options.
    That has been one of the points of communication that has 
been the most difficult. We have worked closely with our local 
ICE field office to increase communication, and we are seeing 
increased communication over 2018 and 2019, and to have those 
kinds of conversations in a public forum setting, such as our 
Maricopa County stakeholders meeting that we do weekly, that 
ICE and CBP participate in. That has been a great model for 
success. Pima County has a similar meeting that is a great 
model for success. When we have all stakeholders at the same 
table and in participation with those conversations, we are 
seeing that we can come up with collaborative solutions much 
easier.
    Senator Sinema. Thank you. Mr. Garcia, I know you have 
worked in this space for decades, and I would like to get your 
historical perspective. How do the current challenges that 
NGO's experience differ from previous border crises, and is it 
the influence and impact of COVID-19 or are there other issues 
that Congress needs to consider, even after this pandemic ends?
    Mr. Garcia. Thank you for your question. I want to go back 
to 2014, when the planes were sent from south Texas to El Paso. 
The Assistant ICE Director, with the approval of the Director, 
called me, we sat down, and we said this is going to happen. We 
set out ground rules, the planes arrived, refugees were 
processed, they were released, the communication was strong, 
and it worked amazingly well. They transported the people being 
released to us to the sites that we requested. That is an 
example of really good communication.
    Fast forward to today. I have communication with a lot of 
individuals in ICE, in Border Patrol, and Office of Field 
Operations (OFO). What I sometimes feel hampers the process is 
that not all three of them are on the same page. I speak to 
individuals who tell me that they are not sure of what is going 
to happen given A, B, or C. So there needs to be interagency 
cooperation, collaboration, so that there is clarity as to how 
the various situations are going to be handled, so that then 
the information that comes to me, as an NGO, is information 
that we can trust, that is going to be reliable.
    A good example of that is that when the planes from south 
Texas, right now with the families, with tender-aged children 
that cannot be expelled, are being flown to El Paso, one plane-
load, and Mexico said they would only allow 100 on each plane 
to be expelled. The other 35 we were then called and told, 
``They are going to be coming to you.''
    The next thing that I know is this contract with Endeavors 
is signed, and those 35 stopped coming to Annunciation House 
and they started going to Endeavors.
    My point in that is that people in ICE, in Border Patrol, 
and OFO are not clear what was going to happen and how it was 
going to happen. There is an example of the importance of 
everybody being on the same page.
    Senator Sinema. Thank you. My next question is for Mr. 
Jones. Based on your research and experience, what role do 
transnational criminal organizations play in facilitating the 
current border crisis compared to the role that these 
transnational criminal organizations played during the 2019 
crisis?
    Mr. Jones. I think the role is essentially the same. The 
TCOs or the drug cartels control the port cities that line the 
border, and they essentially control the distribution channels. 
So whether it is drugs, whether it is firearms, whether it is 
people crossing the border, they control, they tax, and they 
manipulate as those things cross. We are seeing the same 
dynamics today as we saw in 2019, and as we saw in prior border 
crises, where the criminal organizations are recognizing that 
volume is up--in other words, the demand is up--so they have an 
opportunity to manipulate the situation in order to create 
revenue for themselves, because ultimately these are 
businesses.
    Senator Sinema. Following up on that answer, what are 
specific actions that you recommend the administration take to 
make it harder for these transnational criminal organizations 
to exploit asylum seekers, both before they leave their home 
countries and when they first approach the U.S.-Mexico border?
    Mr. Jones. I think there are various things that can be 
done along that trafficking route, from the Northern Triangle 
up through Mexico, such as increased enforcement at the border 
of Guatemala and Mexico, which was something that was 
negotiated by the prior administration, and it appears that 
President Biden has done as well. That is a positive step.
    I think one thing that is often not discussed, that should 
be on the table, is direct negotiation, a very honest and frank 
negotiation, with the government of Mexico, because they are 
obviously very much a part of the picture as we try to solve 
this problem, and at least at the law enforcement level, our 
relationships with Mexico have been deteriorating.
    Senator Sinema. Thank you. I now recognize Senator Carper. 
Senator Carper, are you ready?

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Yes, I am. Madam Chair? I can see you. I 
can hear you. Can you hear and see me?
    Senator Sinema. Yes, we can.
    Senator Carper. Oh, good. Thanks so much. Thanks to you and 
Senator Lankford for hosting this hearing today, and to each of 
our witnesses. I had the opportunity to go to the Northern 
Triangle countries any number of times, and before that to 
places like Nicaragua as well, and to Columbia, to try to learn 
what is it that compels people, young and old, from different 
walks of life, to risk lives and limb to try to get to our 
country.
    I led a congressional delegation (CODEL) down to El Paso 
and to the border near El Paso earlier this month, and when I 
returned one of the things I said in my press conference, when 
I came back, was that in the New Testament, Matthew 25, we have 
a moral obligation to the least of these. Like when I was a 
stranger in your land, you welcomed me. According to scripture, 
we do have that moral obligation.
    I think we are doing a heartfelt, good job, from the folks 
in Border Patrol and people in the Department of Health and 
Human Services, and a lot of contractors that they are hiring, 
and obviously folks like you, some of the folks that are here 
witnessing today.
    But I said, if all we do is welcome the stranger with 
kindness and with compassion, 10 years from now, 20 years from 
now, 30 years from now they are still going to be coming. It is 
important for us to address the root causes of why they are 
coming. I downloaded the President the day after I got back, 
with the Vice President the next day, and with her staff the 
very next day after that.
    Ms. Strano, in your testimony you explained that 
restrictive immigration policies and militarization of our 
border do not change migrants' needs or desires to seek safety 
in the United States, and I would agree. As my colleagues will 
tell you, and I have suggested, I am a big root cause guy. I 
believe that, as I said earlier, if all we do is welcome the 
migrants and be compassionate, 10, 20, or 30 years from now 
they are going to still be coming to our borders.
    With this in mind, can you take a moment--this would be Ms. 
Strano--take a moment to share with us what your organization 
is seeing and hearing about why folks are fleeing their homes 
and countries today, not a year ago, 5 years, 10 years ago, but 
today, and how we can better address the root causes of 
migration? Ms. Strano.
    Ms. Strano. Absolutely. Thank you so much for the question. 
What we hear are the types of stories that Mr. Jones also 
echoed of gang exploitation and violence, and that this is 
something that crosses many borders and carries onto the folks 
that join us here in the United States as well and do seek 
asylum.
    I think that, the root cause is there is a lot of 
governmental corruption or lack of influence over those kind of 
crime factors that are leading to folks fleeing their 
countries. But what we also have to recognize is that sometimes 
our policies inadvertently play into empowering the work of 
cartels on the Mexican and American border.
    When we are creating situations where asylum seekers cannot 
reasonably seek asylum at the port of entry (POE), we do play 
into the thriving business for smugglers to charge people to 
cross. If we do not create situations where we verified the 
documents and pass people through the port of entry and allow 
access to that process, which already exists and is fair and 
judicial, then we create situations where people cross 
repeatedly, even though they might be being expelled. 
Unfortunately, if what is behind you is violence, you cannot go 
back, so folks have no choice but to continue to go forward.
    I think that as we are looking at how to better handle 
these crises, the root crises aspects, I agree with you that 
the root causes are in their home countries, and that there are 
things that could improve there. But also at our border we do 
have the ability to not feed into the smuggling business by not 
allowing people to seek asylum safely and in an orderly process 
at the border, at the port of entry. That is something that I 
think can be examined and improved.
    Senator Carper. This could be for anybody on the panel. Why 
not have folks who want that, to seek asylum in the United 
States, to go to our embassies, our consulates in their native 
countries, like Honduras, Guatemala, El Salvador. Why not just 
do that? I look for very brief answers to that. But, Mr. 
Garcia, do you want to go first?
    Mr. Garcia. I think it is unrealistic. I think it is 
important to understand that we view the border from an 
enforcement perspective. What is the reality in the Triangle 
countries is a humanitarian perspective, and we have a very 
difficult time dealing with what is imminently a social 
problem. The conditions are a social problem. It is a 
humanitarian problem, and we are trying to address it through 
enforcement, and it is not going to work.
    People's lives are such that they are making the choice to 
then flee, and with that comes all of the factors that then 
grow from applying enforcement to that. They are not going to 
go consulates, they are not going to go to embassies, because 
it means I have to continue to live in the same neighborhood 
that I am living in right now.
    If you were to ask me if there is one common, repeating 
narrative that I hear, it is ``my children.'' Parents say ``my 
children,'' be it that I don't want my children to join the 
gangs, that I don't want my children to be forced into gangs, 
and so they flee. Those are social realities or humanitarian 
realities.
    Senator Carper. Thank you, Mr. Garcia. I have another 
question and then I will be done. Sometimes we refer to an 
African proverb, ``If you want to go fast, go alone. If you 
want to go far, go together.'' As we work to ensure that 
migrants are safely and responsibly guided through the 
immigration process, partnerships with organizations such as 
Annunciation House and the International Rescue Committee are 
essential.
    With that said, though, I also believe that if it is not 
perfect we have to work to make it better. The system we have 
at the border is far from perfect, but the work that the NGO's 
do is invaluable. To that end, how can the Federal Government 
be helpful when it comes to facilitating local partnership 
between NGO's and State, Federal, and local government entities 
that are on the ground?
    Would you take a shot at that, Mr. Garcia? How can the 
Federal Government be helpful when it comes to facilitating 
local partnerships between NGO's and government entities that 
are on the ground?
    Mr. Garcia. Communication is one. Second, that we have 
support in providing transportation to the various shelters 
that we have. Support in terms of providing legal assistance 
resources, that we have support, as was previously mentioned, 
with the case management, to assist families in navigating the 
asylum process as they move forward.
    The vast majority of available shelters along the entire 
border area are prepared, ready, and willing to help provide 
the hospitality, the social services, in terms of food, 
hygiene, et cetera, do the transportation arrangements, take 
people to the airport, to the bus stations. They need the 
resources to continue to operate these shelters. I think that 
in that way you could have that partnership.
    Senator Carper. Much obliged. Thank you.
    Senator Sinema. Thank you, Senator Carper. Next is Senator 
Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Thank you, Madam Chair. If we can get the 
webmaster to put up my chart\1\ real quick. Is that possible? I 
see it up there. Or do I have to click on it?
---------------------------------------------------------------------------
    \1\ The chart referenced by Senator Johnson appears in the Appendix 
on page 51.
---------------------------------------------------------------------------
    Senator Sinema. I think your chart is up. It is the one 
that has yellow with blue and red?
    Senator Johnson. I know Committee Members have seen this in 
the past. I know Mr. Garcia was talking about the 2014-2015 
crisis that President Obama termed ``the humanitarian crisis.'' 
If you look at it in the context of this chart, though, you see 
it is barely a blip in comparison to the crisis of 2018 and 
2019, and now what we have seen over the last month. I think it 
is important to take a look. There are different events that 
occurred, court decisions, different actions taken, so you can 
see cause and effect.
    I think it is important to recognize that I know people 
disagreed with the Return-to-Mexico policy, some of the 
agreements we had with Mexico and Central America, but you have 
to admit, it did solve the problem in terms of reducing the 
flow of children and family units coming in, exploiting our 
broken asylum system. That was well before the COVID crisis. I 
think it is important to put that in context.
    Over the last 28-day period, the average apprehensions per 
day totaled over 5,900. Almost 6,000 people per day were 
apprehended on the Southwest Border. That is a large caravan a 
day. It is overwhelming our system. It is leading to untold 
inhumanity and depredations by the human traffickers.
    I am glad to hear that we are talking about root cases. I 
talked about that oftentimes during the 30-plus hearings we had 
on our immigration border crisis when I was Chairman. To me, I 
think we are missing the basic root cause of what is causing 
the push factor out of Central America, and I would argue that 
is our insatiable demand for drugs. I think I was struck when I 
first went to Central America, with Senator Carper and others. 
The presidents there were talking about the difficulty of 
corruption and impunity. The impunity kind of threw me for a 
loop until you realize when you have the drug cartels, who are 
untouchable, and they are the most evil people on the planet, 
now that we have eliminated the Islamic State of Iraq and Syria 
(ISIS), you can understand why they can operate with impunity, 
but then that transfers over to the entire culture.
    I would argue we are not going to be able to fix Central 
America until we reduce or stop our insatiable demand for 
drugs. That is a long-term project.
    I think we need to refocus on reducing the flow of children 
and families, incentivized to put themselves in the hands of 
the next most evil people on the planet, which is the human 
traffickers.
    First of all, Mr. Jones, I want to talk to you. I believe 
that the border is 100 percent controlled on the Mexico side of 
the border. Is that your evaluation as well? In other words, 
nobody comes into America without having to pay or become 
indebted to the human traffickers. Is that your understanding 
as well, Mr. Jones?
    Mr. Jones. Thank you for the question, Senator. The drug 
trafficking organizations, or the cartels, or sometimes we call 
them transnational criminal organizations, the very large 
organizations do control, on the Mexico side, each of the port 
cities, and they fight with each other all the time to maintain 
that control.
    Senator Johnson. To the extent that we make it easier, or 
we create pull factors, which I think, personally, is the 
greatest attraction right now, and certainly what has sparked 
this crisis, when we have elected officials saying they are not 
going to deport people or there will be no consequences, or we 
will offer people free health care. That is an enormous pull 
factor.
    If we make it easier, aren't we just increasing the 
incentive, and won't more children, more family members give 
their children over to these human traffickers, and be raped, 
and be kidnapped, and be beaten, and the videotapes be used as 
ransom? I mean, those people [inaudible], won't that increase 
if we actually make it easier for people to come into this 
country and exploit our asylum laws?
    Mr. Jones. I think as policy encourages immigration by 
loosening the requirements for getting into the United States, 
or having a policy where, in the case of undocumented alien 
children, they get in 100 percent of the time, I think those 
types of pull factors do, indeed, create an increase in demand 
on the cartel side, and like with any business, that gives the 
cartels opportunity for exploitation, and for making money 
themselves off of the immigration crisis. I think you are 
absolutely correct.
    Senator Johnson. I am all for a legal immigration system. 
That is what made this country great, is everyone is coming to 
this country but is has to be done in a legal fashion if it is 
going to be done, even a humane fashion.
    My concern, again, is by making this easier, isn't it true, 
to cross over you either have to pay the cartels or indebted 
yourself to them--how do they pay off that debt? What have you 
seen? For example, in our hearings we heard about a child being 
sold for $84.
    We have heard of children being reused. We certainly have a 
picture of that father with his 2-year-old daughter face down, 
drowned in the Rio Grande. When we were down on the border we 
saw a dead body floating. The following day, I think a 9-year-
old girl was drowned.
    We need to convert this into a legal process, but isn't it 
true that around 90 percent of the people who coming in here 
claiming asylum, claiming credible fear, they do not have a 
valid asylum plan? Is that roughly true?
    Mr. Jones. My understanding is that is roughly accurate, 
that approximately 90 percent of asylum claims coming from that 
part of the world are eventually denied.
    Senator Johnson. Now I was also shocked to learn, when we 
went down on the border, that the Biden administration is 
giving Customs and Border Protection the goal of processing 
migrants in about 8 hours, and then I was even more shocked to 
realize they are releasing them, first without a COVID test, 
but also without even a notice to appear. There is no 
immigration process set up whatsoever for these individuals.
    By the way, I have to also say, I flew home from McAllen. I 
had three migrants sitting next to me with their envelopes, 
saying, ``Please help me. I don't speak English. Help me find 
my next flight.'' The most polite people. Each one had about a 
2- or 3-year-old little girl, the most well-behaved people. 
These are people that I think would be wonderful legal 
immigrants, but I am so afraid that they are going to be 
completely exploited by the human traffickers, and I do not 
think we emphasize the depredations of the human traffickers 
enough, but what our policies are incentivizing.
    Would you comment on that, Mr. Jones?
    Mr. Jones. I absolutely agree with that. I have not heard 
about no notices to appear, or people being released without a 
notice to appear that may be happening. But as Senator Lankford 
said, when they are being given notices to appear these days, 
those notices are for 2 and 3 years down the road, which is 
essentially the same thing you are talking about. I completely 
agree, Senator.
    Senator Johnson. Thank you, Madam Chair, for working with 
me over the last couple of years to try to address this 
problem. I look forward to working with you to do the same.
    Senator Sinema. Thank you, Senator. I look forward to that 
as well.
    I now recognize Senator Padilla.

              OPENING STATEMENT OF SENATOR PADILLA

    Senator Padilla. Thank you, Madam Chair, and thank you to 
the witnesses that are participating today.
    Based on conservations I have had with NGO's serving 
immigrant communities at the border in California, there are a 
number of areas where it seems that the Federal Government can 
support organizations strategically, including funding for 
food, shelter, transportation, medical costs, and other 
important services. Many of us were proud to write a letter for 
the American Rescue Plan Act (ARPA) earlier this year, which 
included $110 million for the Federal Emergency Management 
Agency (FEMA's) Emergency Food and Shelter Program, to support 
local service organizations in providing continued humanitarian 
relief to individuals and families.
    However, we know that it is not enough, and we are already 
hearing from organizations they need additional long-term 
funding, so they can better plan on how to use the funds 
effectively.
    As we move forward with the fiscal year 2022 appropriations 
process--this is a question for Ms. Strano and Mr. Garcia--what 
long-term investments would be helpful to support your work?
    Ms. Strano. If I can respond first--thank you so much, 
Rubin--thank you for your question, Senator. I agree completely 
with you that allocation under the ARPA, the $110 million 
allocated under ARPA, is very helpful for these community-based 
resources. I agree with the direction you are going, though, 
that this needs to be sustainable, long-term funding. There is 
a tendency to respond to asylum as though it is an emergency or 
a crisis, when it is making big headlines and we are seeing 
higher numbers of encounters, but there is no funding that is 
in place for these types of programs outside of those very 
visible increases.
    We do see and ebb and flow to asylum, because there is an 
ebb and flow of international crises that drive asylum. We also 
see that those services are needed in border States year-round.
    Prior to 2020, when we had particularly restrictive 
policies in place, we were seeing 250 people a month at the 
Welcome Center in Phoenix, and that is not considered a high 
arrival number. That is the normal flow through a border State.
    I think that funding needs to become more long-term and 
sustainable, and recognition that these are resources our 
communities benefit from year-round, but also that these folks 
need to access year-round. I do want to identify that we see 
increases and decreases in arrivals, but we also have to 
compare those numbers alongside expulsions, alongside 
apprehensions. There are very different ways to see those 
numbers. The reality is that every day it is a safe assumption 
that folks are arriving at our border seeking asylum, and that 
those services are needed.
    Senator Padilla. Mr. Garcia.
    Mr. Garcia. I would echo what Ms. Strano just finished 
saying. I would add to it that part of what complicates all of 
this is the inconsistency that results from the politicization 
of border policy. As administrations change, the language 
changes, the policy, the mentality changes, and the will to 
handle individual that are arriving, that are seeking asylum 
changes. It is very difficult then to have any kind of a 
consistent policy going forward, because there is no consistent 
policy on the part of the Federal Government. You can go from 
one administration to another and see very radical changes into 
how things are being done.
    I would say that number one is there needs to be the 
establishment, the evolution of a consistent border policy in 
regard to asylum. We need to recognize that asylum cannot be a 
moment-by-moment decision and policy. It has to be a commitment 
to a very long and established right that is recognized 
international and nationally, to assist individuals that have a 
fear of returning to their home country. And that needs to be 
consistent.
    Senator Padilla. Thank you. I want to make sure I ask the 
next question on an important topic, but let me preface it by 
recognizing that the Trump administration put a number of harsh 
deterrence measures in place to try to discourage people from 
coming to our Southern Border. For example, its Zero Tolerance 
Policy was designed to separate children from their parents 
when crossing the border, and the Remain-in-Mexico program 
forced asylum seekers to return to Mexico to wait for their 
asylum hearings in a U.S. immigration court. These migrants 
often waited in overcrowded and unsanitary camps, and in 
extremely dangerous settings.
    A question for Ms. Strano. What are some of the best 
practices amongst NGO's on how to work with these migrant 
populations and address the complex mental trauma, as well as 
the physical trauma they have experienced in making the journey 
to the United States?
    Ms. Strano. Absolutely. I appreciate your question, 
Senator. Within the NGO's, and especially the border shelters 
which tend to be the first place that folks land post that 
initial processing by Immigration, we do implement a variety of 
measures that are informed by research-driven, trauma-informed 
care. That is something that is the ability to be codified into 
a Federal system that is implemented across the entire border 
region, recognizing that folks have experienced both acute and 
chronic trauma that led to them fleeing their countries. Many 
of them have recently experienced the loss of a child, the loss 
of a family member. We see a lot of family units where the 
parents are deceased and another family member has had to adopt 
the children.
    There are a lot of complicated family arrangements that are 
arriving at the border, and one of the things that does 
contribute to that is the current policy of only recognizing a 
biological parent and a biological child as a family unit. 
Unfortunately, the nature of asylum is that family units are 
not always intact. When we look at unaccompanied minors, some 
of these are children being put in facilities because they 
arrived with a guardian instead of a biological parent. There 
is some opportunity to explore what aspects of the trauma 
actually are inadvertently being created by policy.
    Additionally, I would add that the restrictive policies you 
referred to do not create a safe or more orderly process at the 
border. They actually create a lot more work for CBP, 
especially Border Patrol. I spoke to the CBP unit yesterday, 
Border Patrol from Tucson Sector. They say that although their 
encounters are at a 20-year high, they are expelling 90 to 95 
percent of those folks back to the other side of the border, 
and they not unique encounters. Folks are attempting to cross 
over and over again, because of restrictive policies.
    If we actually want to holistically address the problem and 
not put people back into situations where they are vulnerable 
to exploitation and smugglers and kidnapping on the Mexico side 
of the border, we have to look at how do we process people 
through our ports, following the policies that we already have 
that exist for that purpose, and ensure that we are not sending 
them to cross outside the port of entry and create greater work 
for everybody and more danger.
    Senator Padilla. Thank you very much. Thank you, Madam 
Chair.
    Senator Sinema. Thank you, Senator Padilla. Senator 
Lankford?
    Senator Lankford. Thank you. Thanks again to our witnesses 
that are here today. This is a very serious issue that several 
of you have talked about--172,000 encounters last month, 
172,000 and climbing. This month, 19,000 unaccompanied 
children, in March. We will be at that number again in April. 
Those two numbers are record highs for the last 20 years. We 
are seeing something very unique at this point.
    We are well over 1 million people in the asylum backlog, 
and as I mentioned before, we are 3 years before people will 
actually get to a court hearing. As of the end of February, the 
next date that was available was May 22, 2024, to be able to 
get an asylum hearing, which is very difficult for those who 
have a legitimate asylum claim, because we have so many people 
that are coming through that will not have a legitimate asylum 
claim.
    In addition to that, we are still dealing with some of the 
challenges on the border fencing itself. I have talked to 
Border Patrol in Arizona, as I was down in the Tucson Sector 
not long ago and got a chance to be able to see some of the 
fencing that is not complete there. On January 20th they 
stopped construction, leaving large gaps in the system, and 
when we have gaps in the wall, obviously it directs people to 
illegally cross in those gaps. Those gaps still remain, still 
today, because construction on the wall just stopped on January 
20th.
    When I have talked to Border Patrol, CBP, over and over 
again, they said they would much rather deal with people coming 
to the ports of entry than going through the desert, where it 
makes it even more difficult, or trying to be able to cross in 
other areas that are more remote. Allowing the fencing to be up 
directs individuals to other places, on the whole, and makes it 
much easier for them to be able to actually engage with those 
individuals in a more humanitarian way and process.
    All these things matter, as it all works together in a 
consistent system on this.
    Ms. Strano, let me ask you a quick question on this. The 
funding that you receive, is it all donations, is it all 
volunteers, or do you have a Federal contract?
    Ms. Strano. We do not have a Federal contract. As of now 
there is no Federal funding for asylum seeker services, which 
is something that I think should be examined to create this 
kind of consistent process that everybody is seeking a safe and 
orderly process. All of our funding comes from private sources 
at this point.
    Senator Lankford. At this point, for you and your 
organization, are you gearing up more staff? Are you gearing up 
more facilities? How are you managing? What do you see on the 
future at this point in how your organization is trying to 
prepare for the future?
    Ms. Strano. Absolutely. Thanks for that question, Senator. 
We actually began in November speaking directly with the local 
ICE offices and CBP offices around what they were anticipating 
for increases. We began to expand capacity as a community. We 
work closely with collaborative community partners. We were 
able to expand our capacity at the Welcome Center, build a plan 
for folks to quarantine within the Maricopa County system, and 
we are continuing to scale up in case there are increasing 
arrivals, further than what we have already been seeing. But we 
have seen the biggest numbers we have seen since we opened.
    We are fortunate, though, in adding more staff and having 
existing systems that are working to be able to process more 
people as more folks come through, and to make sure that folks 
are getting informed information about their COVID status, what 
their choices are. One hundred percent of the folks that we 
have encountered and tested and were found to be positive, we 
moved to quarantine hotels voluntarily.
    Senator Lankford. The individuals who are coming to you in 
Phoenix, are these folks that are being delivered to you by 
Border Patrol, or how are they coming to you?
    Ms. Strano. We receive folks directly from the Yuma Port of 
Entry, which is currently the busiest port of entry in Arizona. 
They are being delivered primarily by ICE. CBP does their 
processing. ICE transports folks up to the Phoenix area. They 
process them into a program called Alternatives to Detention, 
which means that they do have a check-in within 10 or 15 days 
with Immigration, and will have many throughout the course of 
their legal process, prior to their court date.
    These folks are all arriving with a legal process and 
paperwork. Sometimes they did not quite understand it so we go 
through it again with them, to make sure they can successfully 
participate in that process.
    Senator Lankford. But they are departing from you within 72 
hours at that point?
    Ms. Strano. Generally, unless they are in quarantine, of 
course, with is a 10-day process.
    Senator Lankford. Then the next time that they will check 
in, basically, most of these would be family units of some 
type. Most of the time they will check in next with ICE in 
their hearing for their notice to appear, 2 to 3 years in the 
future.
    Ms. Strano. No. The next time they will check in with ICE 
is usually about 15 days after we have received them. The 
Alternative to Detention program is currently set up very 
similar to parole-type programs, where they have regular check-
ins, they provide updates, Immigration checks in on where they 
are living, things like that. They do usually have at least one 
adult in the household has an ankle monitor at this time, or 
they have a SmartLINK GPS phone that tracks their movements.
    They actually are staying in very close contact with 
Immigration throughout that process.
    Senator Lankford. Most of the individuals then coming to 
you have an ankle monitor or some kind of link at that point, 
when they come to you?
    Ms. Strano. That is accurate.
    Senator Lankford. OK. Let me ask Mr. Jones about how do we 
disrupt the flow of drugs coming across the border? As Senator 
Johnson mentioned before, one of the big pull factors for 
coming into the country, and one of the major issues for 
Central America is the flow of drugs into our country.
    Many of the individuals that I have encountered--I have 
been on the Arizona border recently, I was on the Texas border 
twice in the past month, to get a chance to get an inspection 
of what is actually happening onsite--the most common things 
that I hear are obviously fear of what is happening in Central 
America for them. Economic opportunity is a big issue. Almost 
everyone is coming because they have a relative that has a job 
for them.
    The biggest issue for all of them is that they have a mom, 
a dad, a brother, a sister, an uncle, an aunt, someone that is 
already living here in the country, and most of those not 
legally present as well, and they are coming to re-engage with 
their family that has been here in the United States for a 
while, and they are reconnecting their family units here.
    Much of this, though, has to deal with the some of the push 
out of Central America dealing with what is happening with 
drugs there and some of the gangs. What can we do in the United 
States, from what you have seen, to be able to deal with some 
of those issues on how we can deal with the drug problem?
    Mr. Jones. Thank you, Senator. In terms of drugs moving 
across the border as opposed to people moving across the 
border, when we get west of the Rio Grande Valley, in other 
words, into New Mexico, Arizona, and the California border, 
most drugs are crossed either through tunnels or directly 
through the port, particularly the Port of San Ysidro is the 
largest land port in the western hemisphere, and there is a 
significant quantity of drugs entering the United States just 
coming straight through the lanes in that port.
    Sinaloa cartel pioneered the use of tunnels to move drugs 
into the United States. A good tunnel can go a long way for 
them in terms of freely moving drugs across the border.
    In the Rio Grande Valley, which is the entire Texas border, 
most drugs and people come straight across the river. It is 
extraordinarily difficult to police, from a CBP standpoint.
    I think in terms of what we can do, from a law enforcement 
standpoint to help, is focus on technology, technology to 
detect tunnels, technology to figure a way to account for the 
fact that it is very difficult to build a wall in a river 
valley here in Texas. Separate from that, to account for the 
fact that sometimes in these ports where drugs are being moved 
across, it is because a CBP guy, or CBP personnel being bought 
off by drug cartels. There are some corruption issues on our 
end there at the ports, as well.
    Senator Lankford. Senator Sinema, may I ask one more 
question?
    Senator Sinema. Of course.
    Senator Lankford. Mr. Jones, let me ask you, as well--thank 
you, by the way, Senator Sinema. The Trump administration put 
in place a policy of working with the Mexican government, that 
they add additional National Guard to their Southern Border 
with Guatemala, and then with the Guatemalan government to also 
enforce their border with Honduras, and to be able to turn more 
people around.
    The Biden administration, according to public reports, have 
also engaged now, in the last month, with that same policy, 
working with the Mexican government to be able to enforce their 
Southern Border, working with the government of Guatemala to be 
able to turn people around. I have had some conversations with 
leadership in the Guatemalan government. They have repeated 
that same statement to me, that they have worked with the Biden 
administration to start turning people around in Guatemala, so 
that they are not coming through Guatemala.
    Tell me about that policy. Is that an effective policy? Is 
that a tool in the toolbox that should be used?
    Mr. Jones. I think the experience of the Trump 
administration's efforts in those area show that it does work. 
There was, of course, the immigration spike around 2018-2019, 
and a lot of those policies went into effect after that, and we 
saw the numbers come down. If Mexico, Guatemala, Honduras, and 
El Salvador are enforcing their own borders, I think that is 
going to go a long way in terms of minimizing the numbers of 
migrants coming up to the United States. I suspect it is going 
to work in this case as well. The Biden administration has 
initiated that with Mexico.
    Senator Lankford. Thank you. Thank you, Senator Sinema.
    Senator Sinema. Absolutely. Thank you so much.
    Senator Lankford, I am going to ask a few more questions. 
If you have time and would like to stay, we probably have time 
for you to ask more questions if you would like, as well.
    My next question is for the entire panel. Several people 
have brought up transportation challenges and the need to 
improve there. I am glad that Senator Cornyn and I included 
language on this very topic in our bill. But what I would like 
to ask you are what are the key things regarding improving 
DHS's capability to transport migrants that Congress needs to 
keep in mind when we are developing initiatives on this topic?
    Ms. Strano. I can kick that off, Senator Sinema, if you 
like.
    One of the things that we have encountered with CBP, in 
particular, is the Anti-Deficiency Act often coming into 
conflict with their ability to transport folks far enough to 
reach services. That is the reason that oftentimes they have 
only been able to transport people to a small town instead of 
reaching into one of the bigger cities where there are 
resources.
    I think that if we look at funding for CBP for 
transportation that it should be included within the scope of 
their work to transport people to a city with outward migration 
and services, which is already within the ICE scope of work and 
is the model that they follow. If that was paralleled in CBP, I 
think that would also help them effectively plan around funding 
and transportation in a way that is more consistent with the 
goals that everybody has, to make sure that folks are reaching 
services, and an opportunity for outward migration and not 
overtaxing rural communities.
    Mr. Garcia. Senator, if I might add on the transportation 
issue, in 2018-2019, ICE had the responsibility of using their 
bus fleet to transport individuals as they were being released 
to all the different shelters. ICE has a policy that allows 
them to transport people that are as far away as 8 hours. We 
were able to ask ICE to transport refugees to churches in 
Albuquerque, Las Cruces, obviously, which is only like a 45-
minute drive. Beyond that, they cannot transport individual 
beyond that 8 hours, and so churches in Denver and churches in 
Dallas, Texas, that were willing to receive, we then had to 
charter our own busses to get them to Denver and to Dallas.
    When the flow became so great that not even ICE could 
handle that, Border Patrol then started releasing individuals 
in smaller cities, for example, Deming, New Mexico, and Las 
Cruces, New Mexico. They stopped transporting them to El Paso 
to be processed by ICE and then ICE transporting them to us.
    When we asked Border Patrol about releasing people to 
smaller cities that have no transportation hubs, like in 
Deming, New Mexico, and instead bringing them to us, we found 
out that Border Patrol did not have a fleet of buses. Now they 
do. They still do not have an adequate number of licensed 
commercial drivers, so they are really not able to use their 
busses.
    My point in this is that in terms of transportation, you 
are going to find a lot of churches, a lot of NGO's that are 
willing to do the work of hospitality, that are willing to 
recruit the volunteers. That is not going to be the issue. The 
issue is getting them to those sites, and for that you are 
going to need robust transportation, both in the hands of ICE 
and in the hands of the Border Patrol.
    Senator Sinema. Thank you. I appreciate that. We have had a 
similar issue in Arizona, where migrants have been released in 
very small communities, sometimes even in communities that do 
not have a bus stop or any way for folks to get their own 
transportation. I appreciate that.
    Let me ask one final question and then I want to make sure 
there is time for Senator Lankford to ask a few questions 
before we head to the votes. Starting with Ms. Strano and then 
turning to Mr. Garcia, what aspect of this current influx of 
migrants surprised you and your organizations and required some 
unanticipated changes in order to successfully respond?
    It is important for Congress and the administration to 
better understand what parts were unanticipated, what parts 
were anticipated, and then better prepare for these unexpected 
challenges in the future.
    Ms. Strano. I think the biggest surprise that we have 
encountered--and thank you for your question, sorry, Chairwoman 
Sinema--the biggest surprise that we have encountered this year 
has been the funding and allocation of resources to the private 
hotel contracts. We have been very grateful for the 
participation in weekly discussions with the White House team 
on the Border Welcoming Task Force, to discuss what models 
would work best, what systemic obstacles exist to the united 
goals that we have around safe, orderly process for everybody. 
But it does not feel like that contract was drafted with the 
community-based resources in mind as being the primary source 
of those kind of resources.
    These shelters that have been established for years, 
especially a nod to my colleague, Mr. Garcia, Annunciation 
House has been a cornerstone of the community for so many years 
because of their ability to serve, and because of the wealth of 
services they provide. These resources are very important to be 
ongoing, sustainable, and available to our communities year-
round with the ebbs and flows of asylum.
    The type of emergency allocation to a private contract that 
does not last or sustain beyond a 6-month time period is again 
addressing asylum from an emergency perspective and not 
necessarily from a long view of how we can better improve our 
services in collaboration.
    We would strongly suggest that the community-based 
resources be looked at as the first resources to reinforce and 
build, and not these one-off and fairly expensive allocations 
of emergency funding to private contracts that will dry up in 6 
months and leave nothing behind.
    Senator Sinema. Mr. Garcia, if you have a response I would 
like to hear it, as well.
    Mr. Garcia. I would say that for myself here in El Paso and 
Annunciation House, the flow that we have been seeing since 
January 2021, of individuals that have been released to us, has 
actually been on the low side. It has been a number that has 
been very manageable for us, and that includes the reception of 
the individuals that are coming to us from MPP.
    What is very surprising has been how Title 42 is being 
managed, especially the decision to fly a plane from south 
Texas to El Paso, and then to expel everybody on that plane, 
and discovering that the vast majority of these families had no 
idea where they were being flown to and were absolutely in 
shock when they were then expelled to Jua rez, Mexico. Some of 
them did not even realize they were in Mexico until they had 
already been expelled, and that, to me, was beyond 
understanding, that we would fly that plane and then expel. 
Mexico then went on to say only 100, which I do not understand 
why that number. Why was it 100 and not 50 or not 70 or 0 that 
could not be expelled?
    The Title 42 is a tremendous concern to me, as I look 
forward to the number of individuals that are going to continue 
to cross over. I am caught by the fact that many of the 
families that are crossing, that get encountered and then get 
expelled, continue to attempt to cross over, over and over and 
over again. I do not believe that is going to stop. It is going 
to continue until we have some kind of a response.
    Senator Sinema. Thank you so much, Mr. Garcia. Senator 
Lankford.
    Senator Lankford. Thank you. I would say, in meeting with 
Border Patrol and CBP, they are very concerned that Title 42 
authority will go away, and if that goes away, what will happen 
in the acceleration of additional individuals coming across the 
border? When I have spoken to Border Patrol and CBP, they 
brought that up over and over and over again, saying we have 
this incredible rush at the border right now, and if Title 42 
authority goes away, that rush is going to accelerate to a 
whole different level, and it will move from unmanageable to 
really unmanageable at that point.
    It will be interesting to be able to see the decision that 
President Biden and his team make on how they are going to 
enforce the border, and what that actually looks like for them.
    Ms. Strano, I did want to ask you about the asylum process 
and what is going on and the challenge of this. You are trying 
to explain the asylum process to individuals that are obviously 
not familiar with our laws. They have been told by the cartels 
that are actually moving them through Mexico, with the 
smugglers, ``Here is what to say when you get there.'' It is 
interesting, when I visited with children at the border and 
talked to families at the border and asked them, ``Why did you 
come right now?'' I get the exact same answer from each person. 
``It's dangerous in my country,'' and it is always that 
sentence and then they stop.
    It has been very interesting to be able to visit with 
people. It is clear they have been coached to know exactly what 
to be able to say at that point. But when they get to you it is 
different. You are trying to help them know kind of what the 
next is, what actually happens at this point.
    The backlog of over 1 million people, the very long delay 
for an asylum hearing, what effect does that have, and how do 
you explain that to people that you interact with?
    Ms. Strano. Absolutely. Thank you for the question, 
Senator. You are correct. Our point that we are encountering 
people, we are not talking to them about the veracity of their 
case or the basis of their case. We are talking to them about 
the next steps, to make sure they are informed, that they can 
participate in the process.
    I will say that a very important aspect of an asylum case 
is the presentation of country conditions reports. Those 
reports are used to present what are the risks of violence and 
persecution that this person is facing back in their country. 
There are some fairly substantial information about the risks 
they are facing. For instance, femicides in Honduras. Very 
important information that when people say they are feeling 
danger, there is a lot to back that up. Winning their 
individual cases is, of course, a different matter entirely, 
and a lot of it has to do with their access to legal resources 
in determining their outcomes.
    What we are offering and encountering at this point is that 
folks have had their information explained to them in a cursory 
way or not in their native language. We are making sure they 
understand about their check-ins, that they understand that 
their court date is coming. I absolutely agree with you that 
that prolonged period between the time that they cross and they 
time of their court date is against all of our shared goals. I 
think it is more humane to get them to that court process much 
sooner, because it is a very bad situation to be put in, to be 
in the country, seeking legal protection, but to not have a 
determination of whether you have legal protection or not yet.
    I would definitely advocate for adding more immigration 
judges, increasing the docket size, and making sure also that 
there is more access to the types of legal resources that help 
the asylum seekers understand that process and successfully 
participate in it. We are in agreement about the length of time 
being too far, and a lot of that does have to do with dockets 
that backed up because of the delays caused by some of these 
processes, such as MPP, such as Title 42. There is a docket 
backup as a result. But I do think it would be addressed with 
more judges.
    Senator Lankford. The docket is actually very old and 
continues to be able to grow, and obviously with so many people 
that we have encountered in the last couple of months, it has 
accelerated dramatically, to be able to get that number down.
    You had mentioned, I think, a number earlier, of how many 
countries that you have encountered this year. How many 
countries have you encountered at your facility there in 
Phoenix?
    Ms. Strano. We have encountered folks from 43 different 
countries this year, although we are primarily seeing folks 
that are not eligible for Title 42 expulsion, and so those are 
people from further away distances. Our primary countries are 
Cuba, Brazil, Haiti, Romania, China, India. Most of the folks 
from Mexico and Central America are still currently being 
subjected to expulsion under Title 42.
    Senator Lankford. Good. All right. That is very helpful. 
Senator Sinema, thanks. Thanks for allowing me to be able to 
drop a couple other questions in. I know that we have a vote 
that is ongoing at this point, so I will reserve my other 
questions for the record.
    Senator Sinema. Thank you, Senator Lankford. With that we 
have reached the end of today's hearing. We do have a vote 
going on in the Senate, so we will head over there. I want to 
thank the witnesses for their time and their testimony, and 
thank all of my colleagues for their participation.
    Before we leave, I do want to announce that our next 
hearing will be the first of a two-part hearing on our nation's 
land ports of entry, how to improve security and better 
facilitate trade and travel.
    Today's hearing record will remain open for 2 weeks, until 
May 13, 2021. Any Senators that would like to submit questions 
for the record for the hearing witnesses should do by May 13th. 
Thanks again. We are adjourned.
    [Whereupon, at 3:55 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 



                                 <all>
</pre></body></html>
